                           Office of the Inspector General
                   Corporation for National and Community Service




                           Pre-Audit Survey Report of the
                                Iowa Commission
                               on Volunteer Service


                           OIG Audit Report Number 00-07
                                 October 27,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # 5-9-G-8-0024
                                    Task Order B9G9X102



This report was issued to Corporation management on May 18, 2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
November 14,2000, and complete its corrective actions by May 18,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                Office of Inspector General                              CORPORATION
                      Corporation for National and Community Service                     FOR NATIONAL

                                   Pre-Audit Survey of the
                             Iowa Commission on Volunteer Service
                                OIG Audit Report Number 00-07


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn h d , and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin PC to perform the pre-audit survey of the Iowa Commission
on Volunteer Service. UKW's report, which follows, indicates that the Iowa Commission appears
to have an open and competitive process to select national service subgrantees, and has established
adequate controlsfor theJisca1administration ofgrants andforprovidingsubgrantees with training
and technical assistance. However, the report also notes that the Commission does not have
adequate controls in place to evaluate and monitor subgrantees. The report recommends
improvements in the Commission 's monitoringprocess, including requiring the retention ofspeczjic
information on monitoringprocedures. The report also includes recommendations for follow-up
on corrective actions by the Corporation for National Service and revision of the Corporation's
                                                                                     Inspector General
                                                                                     1201 New York Avenue, NW
                                                                                     Washington, I)C 2052.5
guidance on subgrantee monitoring to spectfj, minimum procedures to be performed and minimum
documentation requirements. Finally the report recommends a program-speczJicfinancia1 audit of
the Commission.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. The Iowa Commission's response (Appendix C)
describes certain corrective actions in response to the survey findings. The Commission disagrees
with the recommendation for a program specific audit.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                         Pre-Audit Survey Report of the
                                      Iowa Commission on Volunteer Service


                                                       Table of Contents


Pre-Audit Survey Report

  Results in Brief ............................................................................................................................ 1

  Background .................................................................................................................................   .2

  Overview of the Iowa Commission ............................................................................................                   3

  Objectives, Scope and Methodology .........................................................................................                    4

  Findings and Recommendations ................................................................................................ .5


Appendices

 Appendix A - Iowa Commission Funding - 1995 through 1999 .............................................. 10

 Appendix B - Detailed Engagement Objectives and Methodology .......................................... 15

 Appendix C - Iowa Commission Response ............................................................................... 18

  Appendix D - Corporation Response                           ................................................................ - 2 0
Inspector General
Corporation for National and Community Service

At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Iowa
Commission on Volunteer Service. The primary purpose of this survey was to provide a
preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring Iowa State subgrantees, including AmeriCorps
       Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Iowa Commission.

RESULTS IN BRIEF

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering grants
received from the Corporation.

   The Commission appears to have an open and competitive process to select national
   service subgrantees, and the related systems and controls appear to be functioning as
   designed.

   The Commission appears to have adequate controls in place for the fiscal administration
   of grants.

   The Commission does not have adequate controls in place to evaluate and monitor
   subgrantees.

   The Commission appears to have adequate controls in place to provide reasonable
   assurance that training and technical assistance are made available and provided to
   subgrantees.

Based on our preliminary assessments, we recommend that the OIG perform a program-
specific financial audit of Corporation funding to the Iowa Commission. The financial audit
should consider coverage provided by the State's Single Audit and similar audits of
subgrantees. In addition, audit procedures should include verification of reported Member
service hours and performance information provided to the Commission by subgrantees in
Progress Reports.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the Iowa
Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, ArneriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its ArneriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide ArneriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to AmeriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities as well
as effective control and accountability for all grant and subgrant cash, real and personal
property, and other assets.
0 VER VIEW OF THE I 0 WA COMMISSION

The Iowa Commission on Volunteer Service is headquartered in Des Moines, Iowa. The
Commission has been providing national and community service programs in its current form
since 1995. The Commission reported that it received funding from the Corporation totaling
$975,337 in 1995; $1,700,735 in 1996; $1,510,533 in 1997; $1,583,858 in 1998; and
$1,249,873 in 1999. Additional information on the Commission's funding is presented in
Appendix A.

The Commission currently has three full-time staff consisting of two Program and
Administrative Officers and an Administrative Assistant. The Commission's AmeriCorps
Program Officer monitors program activities. The Senior Accountant, contracted through the
Iowa Department of Economic Development, is responsible for the monitoring of fiscal
activities of subgrantees.

As part of the State of Iowa, the Commission is included in the state's annual OMB Circular
A-1 33 audit. There have been no questioned costs or findings identified at the Commission to
date. However, it was not considered or tested as a major program.

The Commission provided the following information regarding subgrantee A- 133 audits:

                                                                  Number of
                          Total Amount of                        Subgrantees
                            Corporation                            Subject
            Program            Funds            Number of       To A-133 Audit
             Year           Subgranted         Subgrantees      Requirements




Determination of the number of subgrantees subject to OMB Circular A-133 audit
requirements is based on information received from the Commission and the dollar value of
federal awards passed through the Commission during the program year. Other subgrantees
could be subject to an OMB Circular A-133 audit if additional federal funds were received
from other sources during the program year.

We obtained and reviewed audit reports for four subgrantees during the 1995 through 1998
period under review and only noted one discrepancy in an amount reported on a FSR. Iowa
Department of Economic Development personnel discussed this issue with the subgrantee
and the subgrantee submitted a revised FSR.
OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Iowa State subgrantees, including ArneriCorps
       Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 27, 1999.
Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not
perform an audit of any financial statements, and the procedures described above were not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts, and grants. Accordingly, we do not express an
opinion on any such financial statements or on the Commission's controls and compliance.
Had we performed additional procedures, other matters might have come to our attention that
would have been reported to you.

We provided a draft of this report to the Iowa Commission and the Corporation for National
and Community Service. The Commission's response to our findings and recommendations
is included in Appendix C. The Corporation did not respond in writing to our findings and
recommendations within the thirty-day comment period.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The Iowa Commission has developed various
procedures to comply with this requirement.

The Iowa Commission advertises the availability of funds through direct mailings to potential
subgrantees. Potential applicants are required to submit concept papers identifying the need
for the funding, how the funds will be used to address the needs of the Amencorps members,
and the design and organization of the program. A Grant Review Committee, which consists
of a Commission member and volunteer members, reviews the papers and sends full
applications to the subgrantees. This Committee evaluates the potential new programs on
how the program will: accomplish goals; strengthen its community; and monitor and evaluate
its ongoing improvement.

This Committee then submits its evaluation on each applicant to the Program and Planning
Committee, which reviews the applicants and sends recommendations to the Corporation for
funding.

In addition, the Iowa Department of Economic Development has established a contract with
the Auditor of the State of Iowa to perform pre-award surveys of all grant applicants in order
to evaluate their accounting systems and determine whether each applicant is suitably
designed to comply with the terms and conditions of the grant award. As part of the pre-
award surveys, State auditor staff obtain an understanding of the internal control structure,
evaluate the design of the internal control structure, and test a limited number of transactions.
Based on the results of our testing, the Commission appears to maintain adequate
documentation to support the selection process, however, we identified the following area for
improvement.

      The Commission did not maintain signed conflict of interest forms as required.

Section 3.6 of the Reference Manual for Commission Executive Directors and Members
states "Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state." The section continues to state
"As defined by the Act, a Commission member or review panel member is considered to
have a conflict of interest if the member is currently, or was within one year of the
submission of a grant application to the Commission: an officer, a director, a trustee, a full-
time volunteer or an employee of an organization submitting a grant application to the State
Commission."

Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the
member must recuse himselUherself from the Commission's administration of the grant
program, including such activities as any discussions or decisions by the Commission
regarding the provision of funds or education awards to any program or entity funded under
the same funding category. "




The Commission was unable to provide conflict of interest statements signed during the 1995
and 1996 program years, because under Corporation requirements, Commissions are only
required to keep documentation for three years. In addition, we also determined that during
the 1998 program year, the Commission relied on conflict of interest statements signed
during the 1997 program year instead of obtaining updated forms.

Because the Commission could not provide all signed and dated conflict of interest
statements, we were unable to determine if conflict of interest statements were properly
completed by all Commission and peer review panel members during the grantee selection
process and whether the individual reviewer lacked a conflict of interest.

In response to these findings, the Iowa Commission issued new requirements effective
November 18, 1999. The statements are now required to list all applicants that are reviewed,
identify any conflicts of interests and document such conflicts on the form.

We recommend that the Commission continue to implement the new requirements for the
next review/selection process. In addition, the Commission should maintain copies, signed
and dated by the Commission and peer review panel members, of all required conflict of
interest forms for each grant applicant on file in accordance with the Corporation
requirements.
Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" (A Reference Manual for Commission
Executive Directors and Members, section 4.3).

The Commission appears to have an adequate process in place for the fiscal administration of
grants. As mentioned above, site visits are performed during the subgrantee selection process
by a state auditor to determine whether the subgrantee has an adequate accounting system,
which will enable it to comply with the terms and conditions of the grant award. In addition,
the Commission has established a contract with the Iowa Department of Economic
Development to maintain the Commission books, review cash drawdown requests and
Financial Status Reports received to ensure matching requirements are met, and accurate
Financial Status Reports are submitted to the Corporation.

Procedures are also in place to manage cash drawdowns and disbursements to subgrantees,
and ascertain whether subgrantees have met their matching requirements by the fiscal officer.
In addition, using a spreadsheet, the Program Officer summarizes individual subgrantee
quarterly FSRs into one cumulative FSR that is reported to the Corporation.

The Commission began using the Web-Based Reporting System on October 1, 1999. We
identified no significant areas for improvement within this process.

Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

The program officer performs approximately four site visits each year, which are focused on
the members' involvement in the programs. In addition, the program officer completes the
program review instrument established by the Corporation, which is a "yes or no" checklist
addressing the financial systems of the subgrantee.

In connection with the monitoring of subgrantees, the Fiscal Officer receives and reviews
A-133 audit reports from all subgrantees. All findings identified in the audit reports are
followed up and this follow up is documented in the subgrantees' file. The Fiscal Officer also
verifies the amounts reported on the quarterly FSRs to the monthly expense reports submitted
by the subgrantees.
We identified the following area for improvement related to the evaluation and monitoring of
subgrantees.

           The evaluating and monitoring system for subgrantees needs to be
                            improved at the Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-
Project Organizations, as amended, Subpart D 5 400 (d)(3) pass through entities are required
to "Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved." In addition, 5400 (d)(4)
requires that pass through entities "ensure that subrecipients expending $300,000 or more in
Federal awards during the subrecipient's fiscal year have met the audit requirements of this
part for that fiscal year."

During our review of monitoring folders for subgrantees, which document monitoring site
visits, we determined that certain information was not included. Specifically, the names of
the Member files reviewed, identification of Member files where exceptions noted and
procedures followed to select Member files reviewed were not included. In addition,
comments included on the checklists were general in nature and prevented others or us from
re-performing procedures completed by Iowa Commission personnel. The lack of specific
documentation prevents us from determining the adequacy of the monitoring procedures
performed by Iowa Commission personnel.

We recommend that the Commission revise written policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow up). This will allow the Corporation to
assess the Commission's oversight of subgrantees when it performs its planned Commission
administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance on subgrantee monitoring to specify minimum procedures to be performed, as
well as minimum documentation requirements.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.
This report is intended solely for information and use of the Office of the Inspector General,
management of the Corporation for National and Community Service, the Iowa Commission
on Volunteer Service, and the United States Congress and is not intended to be and should
not be used by anyone other than these specified parties.




Washington, DC
October 27, 1999
APPENDIX A - 10 WA COMMISSION FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE IOWA STATE COMMISSION
                                                                 1995



                       .
                 AMER 'CORPS
                                                       1
                                                  AMERICORPS
                                                                               1
                                                                          PDAT FUNDS
                                                                                                 1
                                                                                           ADMINISTRATION
               FORMULA FUNDS                      COMPETITIVE               $65,000           FUNDS"
                   $527,144                          FUNDS                                    $175,374
                                                    $207 819
                                                                              NO
                    MATCH                           MATCH                   MATCH             MATCH
                    $205,603                        $65 018                REQUIRED           $29,184




                                                       v                       f
                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $975,337




                                                   FUNDS AWARDED TO SUBGRANTEES
                                                             $734,963




                                                  FORMULA                COMPETITIVE
                                                   $527,144

                                                    MATCH                   MATCH
                                                   $205,603                 $65.018




                                                  TOTAL # OF
                                                    SITES:
                                                                       l 1TOTAL # OF
                                                                            SITES




 There were no carryovers for 1995

 '^   D~sabil~ty
              funds ~ncludedin grant award
APPENDIX A - I 0 WA COMMISSION FUNDING




                                                    CORPORATION FOR NATIONAL SERVICE
                                                   FUNDING TO THE IOWA STATE COMMISSION
                                                                    1996



                           I                            +I                                 I                       I
                                                  AMERlCORPS                          PDAT FUNDS            ADMINISTRATION
                      FORMULA                     COMPETITIVE
                        FUNDS                       FUNDS                                                      $499,209
                       $668,523




                                                                                  I                   1 I
                                                    $481,947

                      MATCH
                      $361,630
                                                     MATCH
                                                     $136,947                          REQUIRED
                                                                                        Mt:H                   $257,465
                                                                                                               MAT           1
                                                         f                                1
                                                 TOTAL CNS FUNDS AVAllABLE TO THE COMMISSION
                                                                  $1,700,735




                                                   -
                                                         FUNDS AWARDED TO SUBGRANTEES
                                                                   $1,150,470




                                                                                       AMERlCORPS
                                                      FORMULA-                         COMPETITIVE.
                                                                                         $481,947

                                                       MATCH'                            MATCH
                                                       $361,630                          $136,947

                                                      TOTAL # OF                        TOTAL # OF
                                                        SUBS'                             SUBS
                                                          3                                 2

                                                      TOTAL # OF                        TOTAL # OF
                                                        SITES'                            SITES
                                                           3                                 2




Total Carryovers for 1996 (Not Included in the current year funding amounts above).

     Admlnistratlon    $       77,139
     PDAT-                      60,000
     Amer~Corps.                79.109




 "   D~sablllty funds lncluded In grant award
APPENDIX A - 10 WA COMMISSION FUNDING




                                                    CORPORATION FOR NATIONAL SERVICE
                                                  FUNDING TO THE IOWA STATE COMMISSION
                                                                   1997




                FORMULA
                  FUNDS
                                                  COMPETITIVE
                                                    FUNDS
                                                                                 PDAT FUNDS
                                                                                   $96,000
                                                                                                   i
                                                                                                   ADMINISTRATION
                                                                                                      FUNDS "
                                                                                                      $154,510




          1                      1
                 $752,090                           $507,933



                                              I     MATCH                          MATCH               MATCH
                 MATCH                              $184,668                      REQUIRED            $292,440




                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $1,510,533




                                                     FUNDS AWARDED TO SUBGRANTEES
                                                               $1,260,023




                                               L
                                               AMERICORPS
                                                                                tAMERICORPS
                                                  FORMULA                        COMPETITIVE
                                                   $752,090                        $507,933

                                                    MATCH                               MATCH.
                                                   $336.956                            $184,668

                                               TOTAL # OF SUBS                        TOTAL # OF
                                                       3                                SUBS
                                                                                          2
                                               TOTAL # OF SITES
                                                      3                               TOTAL # OF
                                                                                        SITES:
                                                                                           2




 Total Carryovers for 1997 (Not Included In the current year fund~ngamounts above).

  Adrnln~stratlon    $      35,000
  PDAT                      39.000
  Arner~Corps                3,793


 "   D~sabllltyfunds ~ncludedIn grant award
APPENDIX A - 10 WA COMMISSION FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE IOWA STATE COMMISSION
                                                                 1998


                   1
           AMER~CORPS
                                                     +
                                               AMERICORPS
                                                                                           +
                                                                                      PDAT FUNDS
                                                                                                           +
                                                                                                     ADMINISTRATION
            FORMULA                            COMPETITIVE                              $110,625        FUNDS "
              FUNDS                              FUNDS                                                  $196,454
             $887 343                            $389,436
                                                                                          NO
              MATCH                                MATCH                                MATCH           MATCH
              $398,691                            $239,535                             REQUIRED         $222,296




                                                     v                                     v
                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                              $1,583,858




                                                   FUNDS AWARDED TO SUBGRANTEES
                                                             11,276,799




                                                AMERICORPS                            AMERICORPS
                                                 FORMULA                              COMPETITIVE.
                                                  $887,343                              $389,436

                                                   MATCH                                 MATCH
                                                  $398,691                              $239.535

                                                 TOTAL # OF                            TOTAL # OF
                                                   SUBS                                  SUBS.
                                                     4

                                                 TOTAL # OF                            TOTAL # OF
                                                   SITES                                 SITES
                                                      4




 Total Carryovers for 1998 (Not included in the current year fundlng amounts above)

  Admlnlstratlon       $   15,338
  PDAT                     24,000
  Amer~Corps               63,474


 " Dlsabll~tyfunds Included In grant award
APPENDIX A - 10 WA COMMISSION FUNDING




                                                        CORPORATION FOR NATIONAL SERVICE
                                                       FUNDING TO THE IOWA STATE COMMISSION
                                                                        1999




                  AMERICORPS
                   FORMULA
                    FUNDS
                    $705,779

                     MATCH
                     $570,784




                                                             1                              1
                                                    TOTAL CNS FUNDS AVAllABLE TO THE COMMISSION
                                                                     $1,249,873




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $1,009,089



                                                     A
                                                     AMERICORPS
                                                                                        L
                                                                                        AMERICORPS
                                                          FORMULA                        COMPETITIVE
                                                           $705,779                        $303,310

                                                           MATCH                           MATCH
                                                           $570,784                        $249,923

                                                         TOTAL # OF                       TOTAL # OF
                                                           SUBS                             SUBS
                                                             6                                2

                                                         TOTAL # OF                       TOTAL # OF
                                                           SITES                            SITES




   Total Carryovers for 1996 (Not lncluded In the current year funding amounts above)

     PDAT                    60,000
     Arner~Corps            234,717
     D~sab~ltty              38,218


   " Dlsab~l~ty
             funds ~ncludedin grant award
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following to ensure compliance with Part
6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations: overall control environment;
activities allowed or unallowed and allowable costs; cash management; eligibility; equipment
and real property management; matching; period of availability of Corporation funds;
procurement and suspension, debarment; program income; and reporting by the Commission
to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       of Members, service hour reporting, prohibited activities, payment of living
       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C - 10 WA COMMISSION RESPONSE




                                                  April 21, 2000

     Luise S. Jordan
     Inspector General
     Ofice of Inspector General
     1201 New York Avenue, NW
     Washington, DC 20525

     Dear Inspector General Jordan:

            The Iowa Commission on Volunteer Service (ICVS) appreciates the opportunity to
     respond to OIG Audit Report Number 00-07, dated October 27, 1999. The Commission also
     would like to thank Urbach Kahn & Werlin, PC, who performed the pre-audit survey on your
     behalf The ICVS agrees with the findings reported in the pre-audit survey However, we do not
     support the recommendation "that CNS 01G perform a program-specific financial audit of
     Corporation funding to the Iowa Commission."
            Urbach Kahn and Werlin, PC reported to you the following findings:
                    "The Commjssion appears to have an open and competitive process to select
                    national service subgrantees, and the related systems and controls appear to be
                    hnctioning as designed."
                    "The Commission appears to have adequate controls in place for the fiscal
                    administration of grants."
                    "The Commission appears to have adequate controls in place to provide
                    reasonable assurance that training- and technical assistance are made available and
                    provided to subgrantees."
                    "The Commission does not have adequate controls in place to evaluate and
                    monitor subgrantees."


            Only one finding questioned the Commission's approval and monitoring of subgrantees.
     The details of this finding state the following:
                    Require the Iowa Commission to maintain signed conflict of interest forms
                    [absent for the years 1995 and 19961.
                    Monitoring and evaluation systems for subgrantees need to be improved at the
                    ICVS.
            In response the ICVS has implemented a procedure to ensure all Commissioners, staff
     and evaluators read, understand, and sign a conflict of interest form. Since the inception of the
     Commission a statement has been made by the Chair, anytime a vote is taken concerning the
     approval of subgrantees, asking Commissioners to declare any conflicts of interest and then
APPENDIX C - 10 WA COMMISSION RESPONSE




     abstain fiom voting. Further, the ICVS has agreed to make sure the minutes of Commission
     meetings include a list of projects and identify Commissioners who declare a conflict.
             The lCVS has also implemented monitoring procedures that provide documentation for
     third-party reviews and audits. The ICVS has taken its responsibility to monitor programs and
     members' files seriously in the past and will continue to do so in the future. The lCVS does not
     dispute the fact that names or copies of information reviewed in the field are not in our program
     files for every year. It is important to note that the lCVS did not violate any current Corporation
     guidelines in reference to its monitoring procedures. The Corporation for National Service does
     not require this procedure.
             Given the fact that only two programmatic findings were in the pre-audit survey report,
     the ICVS is troubled by, and objects to, the recommendation for a program-specific financial
     audit. The lCVS has acknowledged these findings and implemented corrective actions. There
     were no findings of questioned or disallowed costs. There were no findings of inadequate
     financial controls. There were no findings of inappropriate or lack of matching funds. The
     findings were only programmatic in nature.
             Therefore, the ICVS finds no justification for a financial audit. We are concerned about
     the cost and our staff time that would be involved. The Commission is audited annually as a part
     of the State's Single Audit process. Each subgrantee is required to submit an annual A-133 audit
     for our review, and each subgrantee must pass a pre-audit (by the State Auditor) before it can
     receive any funds through the state.
             In conclusion, the Iowa Commission on Volunteer Service respecthlly objects to the
     recommendation 6om Urbach Kahn and Werlin, PC for a program-specific financial audit. We
     are quite perplexed because it is not consistent with the positive conclusions on our performance,
     shared during the exit interview by Urback Kahn and Werlin, PC, last October. Furthermore,
     such an audit will not result in additional benefit to either the Iowa Commission on Volunteer
     Service or the Corporation for National Service. Apart fiom that exception, the ICVS agrees
     with the programmatic recommendations offered in the pre-audit survey and will continue to
     comply with those recommendations.


     Respecthlly,




             -    -                                               Mike Milligan
     Chair                                                        Executive Director
APPENDIX D - CORPORA TION RESPONSE



The Corporation did not respond in writing to our findings and recommendations
within the thirty-day comment period.
